Report No. D-2007-092    May 8, 2007




    Government Purchase Card Controls
       at DoD Schools on Okinawa
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APC                   Agency Program Coordinator
DDESS                 Domestic Dependent Elementary and Secondary Schools DoDDS
                              Department of Defense Dependents School
DoDEA                 Department of Defense Education Activity
DSO                   District Superintendent’s Office
                Department of Defense Office of Inspector General
Report No. D-2007-092                                                         May 8, 2007
   (Project No. D2007-D000FJ-0038.000)

          Government Purchase Card Controls at DoD Schools on
                              Okinawa

                                  Executive Summary

Who Should Read This Report and Why? DoD Education Activity purchase
cardholders and approving officials should read this report because it discusses the
administration and management controls for the Okinawa District government purchase
card program.

Background. The DoD Office of Inspector General is required by Title 10, United
States Code Section 2784 to perform periodic audits to identify: potentially fraudulent,
improper, and abusive uses of purchase cards; any patterns of improper cardholder
transactions; and categories of purchases that should be made by means other than a
purchase card.

The Department of Defense Education Activity - Pacific Area purchase card program
includes its headquarters office in Okinawa and its school districts in Okinawa, Japan,
Korea, and Guam. For this report, we reviewed only the Okinawa District. Okinawa
cardholders incurred $1.4 million in charges against their purchase cards for the period of
review, September 1, 2005 through August 30, 2006. A government purchase card can
be used as a method of procurement or a method of payment.

Results. For the transactions we reviewed, we found that the Okinawa District
effectively managed its government purchase card program. We examined
65 government purchase card transactions (valued at a total of $183,016) and found no
discrepancies. The school district generally conformed to applicable DoD and Education
Activity regulations governing use of the government purchase card for the transactions
we sampled.

Our review of the purchase card transactions did not identify any material management
control weaknesses. See the Background section of the report for a discussion of the
review of internal controls.

Management Comments. We provided a draft of this report on March 14, 2007. No
written response was required, and none was received. Therefore, we are publishing this
report in final form.




                                             i
Table of Contents

Executive Summary                                                       i

Background                                                             1

Objectives                                                             2

Review of Internal Controls                                            2

Finding
     Controls Over the Use of the Government Purchase Card – Okinawa
       District                                                        3

Appendixes
     A. Scope and Methodology                                           9
     B. Prior Coverage                                                 10
     C. Report Distribution                                            12
Background
    The DoD Office of Inspector General is required by Title 10, United States Code
    Section 2784 to perform periodic audits of the DoD Purchase Card Program to
    identify:

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than a
           purchase card in order to better aggregate purchases and obtain lower
           prices.

    Use of the Government Purchase Card. The government purchase card is the
    preferred method to purchase and to pay for micro-purchases, according to
    Federal Acquisition Regulation 13.2, “Actions At or Below the Micro-Purchase
    Threshold.” Use of the purchase card as a procurement and payment tool for
    micro-purchases is also defined in FAR 13.301, “Government-wide Commercial
    Purchase Card.” A “micro-purchase” is defined as an acquisition of supplies or
    services in which the aggregate amount does not exceed $2,500, except for
    construction, where the limit is $2,000. For purchases made outside the United
    States, the threshold is $25,000. Additionally, the purchase card may be used as
    an ordering and payment mechanism for orders above the micro-purchase
    threshold. When used as an ordering and payment mechanism, contractors may
    bill against the card. When the order is delivered, the contractor directly bills the
    purchase card account instead of issuing an invoice to the agency.

    DoD Education Activity. The DoD Education Activity (DoDEA) is a
    subordinate field activity of the Under Secretary of Defense for Personnel and
    Readiness. DoDEA operates two distinct school systems: DoD Dependents
    Schools (DoDDS) and DoD Domestic Dependent Elementary and Secondary
    Schools (DDESS). DoDEA operates schools throughout the world and provides
    education from preschool through grade 12 for eligible dependents of Armed
    Forces members and Federal government civilians.

    DoDDS-Pacific. DoDEA has three administrative areas: DoDDS-Pacific,
    DoDDS-Europe, and DDESS. We are reviewing purchase card use in the Pacific
    Area, which includes three overseas school districts (Okinawa, Japan, and Korea)
    and a domestic school district (Guam). The Pacific Area headquarters is located
    at Torii Station, Okinawa, and the Okinawa District headquarters is on Kadena
    Air Base, Okinawa. The Okinawa District Superintendent’s Office has one
    primary cardholder, and each Okinawa school has one primary cardholder. The
    approving official for the Okinawa District is the district superintendent, and the
    approving official for each school is either the principal or an assistant principal.




                                          1
Objectives
     Our audit objective was to assess whether the use of government purchase cards
     at Defense Education Activity-Pacific was in compliance with applicable laws
     and regulations. We also reviewed management controls over use of the purchase
     card. This report addresses the Okinawa District portion of the audit. See
     Appendix A for a discussion of the scope and methodology and Appendix B for
     prior coverage related to the objectives.


Review of Internal Controls
     Okinawa District internal controls over the use of its purchase cards were
     adequate. Our review of 65 purchase card transactions disclosed no material
     internal control weaknesses.




                                        2
            Controls Over the Use of the Government
            Purchase Card - Okinawa District
            The transactions we reviewed showed that the Okinawa District
            effectively managed its government purchase card program. We
            examined 65 Okinawa District government purchase card transactions
            (valued at a total of $183,016) and found no discrepancies. We concluded
            that the school district conformed to applicable DoD and DoDEA
            regulations governing use of the government purchase card for all of the
            transactions we sampled. Our review of the purchase card transactions did
            not identify any material management control weaknesses.


Cardholders and Approving Officials on Okinawa
     The 65 transactions we reviewed included 15 transactions by the Okinawa
     District Superintendent’s Office (DSO) cardholder and 50 transactions from 5
     different district schools. The Okinawa District had six schools located on
     Kadena Air Base and six schools located on other military bases in Okinawa.
     Each school had a primary cardholder and a back-up cardholder. The approving
     official for each school was located at the school, and the approving official was
     either the principal or an assistant principal of that school. Our review included
     only the schools located on Kadena Air Base.


Audit Criteria
     We conducted our audit in accordance with the criteria contained in the
     Government Accountability Office audit guide, “Auditing and Investigating the
     Internal Control of Government Purchase Card Programs,” GAO-04-87G,
     November 2003. For the Okinawa District government purchase card program,
     we tested the key elements of the control environment outlined in the GAO guide
     for internal control testing. Also, for each of the 65 purchase card transactions we
     judgmentally selected for review, we determined whether the transaction was
     proper based on the six attributes outlined in the GAO guide.


Internal Controls
     We reviewed the internal control environment for the Okinawa District.
     Specifically, we tested the following key elements:

            Span of Control. The “Department of Defense Government Charge Card
     Guidebook For Establishing and Managing Purchase, Travel, and Fuel Card
     Programs,” January 20, 2006, requires that not more than seven cardholders exist
     for each approving official. We found that the Okinawa District span of control
     was appropriate, with one approving official for each primary cardholder. We
                                          3
also found that the cardholder’s approving official worked in the same school. In
each school, the cardholder was the supply technician, and the approving official
was either the principal or an assistant principal. The DSO had one primary
cardholder, and the approving official was the district superintendent. We
concluded that the Okinawa District had an appropriate span of control.

        Training. Properly trained individuals are necessary for a successful
government purchase card program. According to the DoD Government Charge
Card Guidebook, the Agency Program Coordinator (APC) is responsible for
establishing, maintaining, and monitoring purchase card training. The DoDEA
publication, “Government Purchase Card Training Guide,” August 1, 2005,
required three mandatory training courses for participants in its government
purchase card program. The three courses are: the Defense Acquisition
University online Government Purchase Card Tutorial; Section 508 training; and
DoDEA-unique training for APCs.

The APC for the Okinawa District was located at the Pacific Area headquarters
and performed coordination duties effectively. The APC ensured that annual
training was provided to purchase card officials. We reviewed the cardholder and
approving official training files at the Pacific Area headquarters and found that
the APC maintained files for cardholders and approving officials. Our review of
the training files showed that the Okinawa District cardholders and approving
officials were current in their training, and we concluded that training
requirements were effectively met and monitored.

        Purchasing and Reviewing Authorities. The DoD Government Charge
Card Guidebook considers support from highest management levels to be a strong
management control. The approving official at the Okinawa District schools was
either the principal or the assistant principal of the school. The approving official
for the DSO was the superintendent. The superintendent and principals are the
highest management officials within the Okinawa District. We concluded that
high-level management appropriately supported the government purchase card
program, because the approving officials in our sample were either the school
principal or an assistant principal or the district superintendent.

DoDEA requires annual reviews of its government purchase card programs, as
stated in its training guide. The Pacific Area APC, or another individual
appointed by the Pacific Area Procurement Division chief, conducts these
reviews. The records that we reviewed at the Pacific Area office for the six
cardholders in our sample indicated that the APC or another individual had
performed the required reviews.

        Separation of duties. Maintaining the proper separation of duties is a
mandatory management control. The DoD Government Charge Card Guidebook
states that key duties such as making purchases, authorizing payments, certifying
funding, and reviewing and auditing functions will be assigned to different
individuals to minimize the risk of loss to the government. In the Okinawa
District, our review found that generally the requestor, cardholder, and the
approving official were different individuals, but we found exceptions to this
control. For example, at one school, the cardholder was also the requestor for
three transactions in our sample. The purchases were for laminating film,

                                      4
    construction paper, and drawing paper. However, since the school’s purchase
    cardholder was also the supply technician, these occurrences were not
    unexpected. We found that in all cases, the school’s principal or assistant
    principal approved the purchase and that the purchase was proper.


Purchase Card Transaction Results
    The 65 purchase card transactions we reviewed at the Okinawa District were
    completed in accordance applicable guidance. The 65 transactions included
    15 transactions by the DSO and 10 transactions at each of 5 different district
    schools. The transactions reviewed for the DSO and each of the five schools are
    displayed in the tables A through F:

                                               Table A
                             Okinawa District Superintendent’s Office
                                          (15 Transactions)
     Sample                                        Value of
     No.             Merchant/Vendor              Transaction          Item Purchased
       31     RNK International, Inc.               $23,106.00           HVAC Parts
       32     GovConnection, Inc.                    20,888.85         Computer Parts
       33     Shinsei, Inc.                          11,319.46     Repair Gym Bleachers
       34     Solar Traffic Controls                  8,860.00      School Zone Flasher
       35     Best Litter Receptacles, Inc.           7,256.40  Concrete Trash Receptacles
       36     United Office Supply                    3,505.19      Install Wall Partition
       37     American Engineering Co.                2,841.83          Split Unit AC
       38     Okinawa Marriott Resort                 2,779.68   Conference Room Rental
       39     Shinsei, Inc.                           2,698.47      Install Double Doors
       40     Seiw Construction Co., Ltd.             2,697.44      Repair Rooftop Unit
       41     Ryuku Denki K.K                         2,392.59   Install Computer Circuits
       42     Ueki Paint Co., Ltd.                    1,458.06         Paint (Product)
       43     Prometric Japan                           949.20          Adobe Exams
       44     Pelican Hardware & Supply                 789.34       Ladder & Outrigger
       45     Kurashiki Kankyo                          260.48        Dumpster Pick-up




                                           5
                                       Table B
                              Bob Hope Primary School
                                  (10 Transactions)
Sample                                     Value of
No.             Merchant/Vendor           Transaction          Item Purchased
   1     Scholastic, Inc.                   $ 5,113.96          School Books
   2     Gopher Sport                         4,212.55         Gym Equipment
   3     Gaylord Bros Library                 1,699.97         Misc. Supplies
   4     USI, Inc.                            1,614.00        Laminating Film
   5     Discount School Supply                 834.06       Construction Paper
   6     Blick Art Materials                  1,156.80           Art Supplies
   7     Lakeshore Learning Materials         1,111.81         Drawing Paper
   8     Kadena Base Exchange                   797.20         Digital Camera
   9     Kadena Base Exchange                   746.86      Digital Camera & iPod
  10     Camp Foster Post Exchange              355.50         Digital Camera


                                       Table C
                                Kadena High School
                                  (10 Transactions)
Sample                                     Value of
No.             Merchant/Vendor           Transaction           Item Purchased
  11     Nosworthy Telecommunications        $ 2,348.39        Wireless Headsets
  12     Musicians Friend                      1,451.15            Drum Set
  13     Tiger Direct                          1,444.88             HP PDA
  14     J. W. Pepper                          1,420.10           Sheet Music
  15     Sax Arts and Crafts                   1,239.80       Art & Craft Supplies
  16     MacGill                               1,180.00      School Nurse Supplies
  17     InkJets.com                           1,009.20        Ink Jet Cartridges
  18     Pinnacle Systems                        516.90          Video Camera
  19     Amazon.com                              156.06         Mini DV Tapes
  20     Homusent Asakumoto                       74.69         Paint (Product)


                                       Table D
                         Stearley Heights Elementary School
                                  (10 Transactions)
Sample                                     Value of
No.             Merchant/Vendor           Transaction           Item Purchased
  21     Mackin Library Media                $ 4,271.82          Library Books
  22     Mackin Library Media                  4,051.58          Library Books
  23     Gopher Sport                          3,440.82         P. E. Materials
  24     Barco Products                        2,848.00          Speed Bumps
  25     Jensen Audiovisual                    2,381.00  Wireless Audio Equipment
  26     B&K Trading                           2,324.15          DVR Upgrade
  27     DJ Mart, Inc.                         1,752.30      Microphone System
  28     Sundance Publishing                     820.19      Math Adventure Set
  29     Kyocera Mita Japan                      600.13          Printer Toner
  30     Meritline.com                           596.44   Printer Paper & Cartridges

                                      6
                                         Table E
                                Kadena Elementary School
                                    (10 Transactions)
 Sample                                      Value of
 No.      Merchant/Vendor                   Transaction        Item Purchased
   81     Quill Corporation                   $ 5,386.10        Copier Paper
   82     McGraw-Hill Co.                       2,525.69         Math Books
   83     School Specialty, Inc.                2,183.13      School Supplies
   84      Interstate Music                     1,835.39    Music Class Supplies
   85     Ballard & Tighe, Publishers           1,069.20      English Test Sets
   86     Kadena Base Exchange                    564.30       Digital Camera
   87     Best Buy Gov, LLC                       353.00   Notebook AC Adapters
   88     Inkpool, Inc.                           303.41   Ink Cartridges & Paper
   89     Super Duper Publications                293.17     Classroom Supplies
   90     Calloway House, Inc.                    235.95     Classroom Supplies


                                      Table F
                               Kadena Middle School
                                 (10 Transactions)
 Sample                                   Value of
 No.      Merchant/Vendor                Transaction           Item Purchased
   91     Woodwind & Brasswind             $ 7,926.95       Musical Instruments
   92     SchoolMart                         7,486.95      Classroom Calculators
   93     Musicians Friend                   3,181.93        Wireless Headsets
   94     United Office Supply               2,218.34                Ink
   95     Pitsco, Inc.                       1,540.39      Wooden Airplane Kits
   96     Sportime                           1,272.77         P.E. Pedometers
   97     Tapeandmedia.com                     596.80      Ink Cartridges & Paper
   98     Kadena Commissary                    296.77             Groceries
   99     Barnes & Noble                       213.12            Dictionaries
  100     Kadena Base Exchange                 159.30          Digital Camera


For each of these transactions, we verified whether it satisfied the six attributes of
a valid purchase card transaction as described in the GAO audit guide:
Determination of a legitimate government purchase. We determined whether
each transaction was a legitimate government purchase by reviewing either
DoDEA Form 8052, “Request for Approval Prior to Government Purchase Card
Purchase” or DoDDS Pacific “GPC Pre-Approval Purchase Form.” Okinawa
District cardholders were required to obtain prior approval from the approving
official before making a credit card purchase. In each case, we determined that
the purchase was appropriately approved by either the superintendent for DSO
transactions, or the principal or assistant principal. When we did question the
validity of a purchase, district officials were able to justify the purchase. For
example, we questioned the purchase of three digital cameras for the Bob Hope
Primary School. Evidence showed that the purchase was approved by the
school’s principal. The principal explained that he required each of the school
teachers to maintain a web site where pictures of school activities and students
                                      7
    were posted so that military parents could view student activities no matter where
    the parent is deployed.
            Screening for required vendors. We determined that, when required,
    vendor screening was performed and documented based on the type and value of
    the purchase card transaction. To illustrate, DoDEA Form 8052 includes a
    section for the cardholder to check if they reviewed required sources in
    accordance with FAR 8.002 “Priorities for use of Government supply sources.”

             Independent receipt and acceptance. Generally, we found that district
    cardholders adhered to the requirement for obtaining an independent receipt and
    documenting acceptance, but we found exceptions to this control. As mentioned
    earlier in the report, we found that the cardholder was also the requestor for three
    transactions in our sample. The purchases were for laminating film, construction
    paper, and drawing paper. However, since the school’s purchase cardholder was
    also the supply technician, these occurrences were not unexpected. We
    determined that the transactions were proper and appropriately approved.
             Physical control and accountability over pilferable and other
    vulnerable property. At each school, we tested and verified the existence of at
    least one item that we considered pilferable property, including digital cameras
    and musical instruments. The Okinawa District tracked its minor property
    through each school’s library. Pilferable property was issued to teachers through
    the school’s library cataloguing system. We were able to physically verify the
    pilferable property at each school except in one instance, when a camera was not
    available for inspection. However, we found that it was on the school’s
    accountable record and receipted out to a teacher.

           Cardholder reconciliation. Cardholders are required to reconcile and
    approve their monthly statements. U.S. Bank provides monthly statements to
    cardholders and approving officials. Our audit disclosed that all monthly
    statements reviewed were appropriately reconciled and approved.

           Approving official review. Approving officials are required to pre-
    approve purchase card transactions. Approving officials are also required to
    review and sign the monthly statements. We did not find any exceptions to this
    requirement for the monthly statements that we reviewed.



Conclusion
    Okinawa District internal controls over the use of its purchase cards were
    adequate. Our review of 65 purchase card transactions disclosed no material
    internal control weaknesses.




                                          8
Appendix A. Scope and Methodology
   The audit assessed whether DoDEA-Pacific use of the government purchase card
   is in compliance with applicable laws and regulations. We also reviewed
   management controls over use of the purchase card.

   We judgmentally selected 65 purchase card transactions from the Okinawa
   District. The transactions we selected covered the period September 1, 2005
   through August 30, 2006. During this period, the Okinawa District had a total of
   1,980 purchase card transactions, valued at $1.4 million. The 65 transactions
   included 15 transactions from the Okinawa District Superintendent’s Office and
   10 transactions each from 5 different Okinawa schools. We limited our review to
   schools located on Kadena Air Base because of time limitations and distances
   between Kadena Air Base and schools located on other military bases in
   Okinawa.

   To perform this audit, we examined documents at the Okinawa District
   Superintendent’s Office on Kadena Air Base. The documents examined included
   purchase card requests, vendor invoices or receipts, purchase card logs, receiving
   reports, U.S. Bank purchase card monthly statements, training documents, library
   catalogue printouts, and other documents as needed for each of our sample items.
   Additionally, we visited each of the five schools in our sample to verify the
   existence of property purchased and interviewed cardholders and approving
   officials as needed.

   We performed this audit from October 2006 through March 2007 in accordance
   with generally accepted government auditing standards. Because we used
   judgmental sampling techniques to select the transactions for our review, we have
   not made statistical projections.

   Use of Computer-Processed Data. We neither evaluated the general and
   application controls of the U.S. Bank system that processes purchase card
   transactions and cardholder and approving official data nor did we evaluate the
   general and application controls of Defense Manpower Data Center. The
   Defense Manpower Data Center obtains purchase card information from U.S.
   Bank and provides it to the DoDIG Data Mining Division. The DoDIG Data
   Mining Division then provided the data to us. We determined data reliability by
   comparing the data provided to us to source documents. Source documents
   included vendor invoices and monthly statements from U.S. Bank. Not
   evaluating the controls did not affect the results of the audit.

   Use of Technical Assistance. The DoDIG Data Mining Division assisted with
   the audit. The DoDIG Data Mining Division provided us with the DoDEA-
   Pacific purchase card transactions and lists of cardholders and approving officials.
   The DoDIG Data Mining Division also identified potentially questionable
   transactions that we considered in developing our sample.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of a DoD Financial Management high-risk area.
                                        9
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    DoD Inspector General (DoD IG) have issued reports discussing DoD
    government purchase card programs. Unrestricted GAO reports can be accessed
    at http://www.gao.gov and unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

GAO
    Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
    Significant Savings on Purchase Card Buys,” March 2004

    Report No. GAO-04-156 “Purchase Cards: Steps Taken to Improve DOD
    Program Management, but Actions Needed to Address Misuse,” December 2003

    Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
    Force Vulnerable to Fraud, Waste, and Abuse,” December 2002

    Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
    Abuse but is Taking Action to Resolve Control Weaknesses,” September 2002

    Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
    Vulnerable to Fraud, Waste, and Abuse,” June 2002

    Report No. GAO-02-506T, “Purchase Cards: Continued Control Weaknesses
    Leave Two Navy Units Vulnerable to Fraud and Abuse,” March 2002


DoD Inspector General
    Report No. D-2007-043, “Controls Over the Army, Navy, and Air Force Purchase
    Card Programs,” January 10, 2007

    Report No. D-2006-124, “Management of the Purchase Card Program at the
    North American Aerospace Defense Command and United States Northern
    Command,” September 28, 2006

    Report No. D-2006-099, “Purchase Card Program Controls at Selected Army
    Locations,” July 21, 2006.

    Report No. D-2005-006, “Overseas Purchase Card Transactions by DoD
    Dependents Schools-Europe,” October 20, 2004

    Report No. D-2004-104, “Purchase Card Use and Contracting Action at the U.S.
    Army Corps of Engineers, Louisville District,” July 27, 2004


                                      10
Report No. D-2004-096, “Controls Over Purchase Cards at Naval Medical Center
San Diego,” June 29, 2004

Report No. D-2004-076-T, “How to Save the Taxpayers Money Through Prudent
Use of the Purchase Card,” April 28, 2004

Report No. D-2004-016, “Purchase Card Use at the Space and Naval Warfare
Systems Command, Information Technology Center, New Orleans, Louisiana,”
November 14, 2003

Report No. D-2004-002, “Selected Purchase Card Transactions at Washington
Headquarters Services and Civilian Personnel Management Service,” October 16,
2003

Report No. D-2003-109, “Summary Report on the Joint Review of Selected DoD
Purchase Card Transactions, June 27, 2003

Report No. D-002-075, “Controls Over the DoD Purchase Card Program,” March
29, 2002




                                  11
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Director, DoD Education Activity
   Director, Department of Defense Dependents School – Pacific
   District Superintendent, Okinawa District

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs




                                          12
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Pamela S. Varner
James L. Kornides
John K. Issel
Peter G. Bliley
Karen M. Bennett
